CERTIFICATE OF SERVICE
I, Thomas V. Burch, a member of the Bar of this Court, certify that I have
served the enclosed Petition for Certiorari and Motion for Leave to Proceed In Forma
Pauperis by both electronic mail and UPS priority overnight mail on counsel listed
below on March 4, 2021:
Charles D. Austin
Assistant U.S. Attorney
U.S. Attorney’s Office for the District of Maryland
36 S. Charles St., 4th Floor
Baltimore, MD 21201
Respectfully submitted,

March 4, 2021

Thomas V. Burch
Counsel of Record for Petitioner
University of Georgia School of Law
Appellate Litigation Clinic
225 Herty Drive
Athens, GA 30602
(706) 542-5236
tvburch@uga.edu

